NO. 20-107

In the Supreme Court of the United States

CEDAR POINT NURSERY AND FOWLER PACKING COMPANY, INC., Petitioners,
v.
VICTORIA HASSID, IN HER OFFICIAL CAPACITY AS CHAIR OF THE CALIFORNIA
AGRICULTURAL LABOR RELATIONS BOARD, ET AL., Respondents.

PROOF OF SERVICE
I, Katharine M. Mapes, counsel for amici curiae Legal Historians, and a
member of the Supreme Court Bar, hereby certify that on the twelfth day of
February, 2021, I caused three (3) copies of the BRIEF OF LEGAL HISTORIANS
AS AMICI CURIAE IN SUPPORT OF RESPONDENTS to be served on:
Joshua Paul Thompson
Wencong Fa
Pacific Legal Foundation
930 G Street
Sacramento, CA 95814
jthompson@pacificlegal.org
wfa@pacificlegal.org
Joshua Patashnik
California Department of Justice
455 Golden Gate Ave., Suite 11000
San Francisco, CA 94102
josh.patashnik@doj.ca.gov

Service was made by United States Postal Service first-class mail and by email.

Respectfully submitted,

/s/ Katharine M. Mapes
Katharine M. Mapes
SPIEGEL & MCDIARMID LLP
1875 Eye Street, N.W. Ste. 700
Washington, DC 20006
Counsel of Record for Amici Curiae
Legal Historians

